                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I03090040                                                                       page 1 of 1



          An internal review of the Government Travel Credit Card Program by the National Science
          Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
          of the government travel card;

                                              '
          A review of the subject employee's travel card statement transaction reports, during the period
          02/28/02 through 12112/02 reflected multiple cash withdrawals totaling in excess of $3,000
          dollars.

          During OIG's interview of the subject employee, she acknowledged unauthorized use of the
          travel card, stating that when she made the transactions she.did not feel she was violating any
          rules. She advised that she thought that because the card was issued to her and she paid the bills
          she could make and repay the withdrawals.

         NSFIOIG referred this case to the United States Attorney's Office, Eastern District of Virginia
         who declined prosecution in lieu of agency administrative action.

          OIG's referral to NSF resulted in the subject employee receiving counseling fiom her supervisor.
          The subject employee was re-advised of the appropriate use of the government credit card, and
          the seriousness of not adhering to NSF policy, and the travel credit card Agreement the employee
          signed when issued the card. The official record of counseling is attached and constitutes part of
          this closeout document.


          Accordingly, this case is closed




          ' Footnote Redacted

NSF OIG Fonn 2 (1 1/02)
    MEMORANDUM

    DATE:
.
.   -                                                                                         . -

    TO?

    FROM:

    SUBJECT:       Confmation of Counseling


    This correspondence is to confirm our conversation in which we discussed your misuse of your
    Government Travel Credit Card.

     o                 n the Office of the Inspector General (OIG), National Science Foundation
    (NSF) issued the results of their investigation into Government Travel Credit Card delinquency
    and misuse. In it, a detailed review was conducted on the activity of your account. The review
    showed multiple ATM withdrawals, made during times when you were not on official travel.
    Therefore, your use of the card on these occasions was unauthorized. As we discussed, the
    government travel card is only for appropriate business use while on official travel.

    From our conversation on this matter, I am confident that you now fully understand the
    appropriate use of the Government Travel Credit Card, and the seriousness of not adhering to
    NSF policy, and the Travel Credit Card Agreement you signed when you were issued your card.
    I am issuing this memo to confirm that we had a discussion on this matter, and that I am satisfied
    with its outcome; I do not believe any further action to be necessary. However, please
    understand that as a journey-level Administrative Manager, it is vital for you to be aware of the
    regulations that govern administrative functions. This document will not be filed in your Official
    Personnel Folder, as it is considered to be an informal memorandum.
